                                                               Issue Date
                                                                            January 31, 2007
                                                               Audit Report Number
                                                                            2007-AT-1003




TO:         John L. Perry, Director, Office of Community Planning and Development,
            Atlanta, Georgia 4AD


FROM:
            James D. McKay
            Regional Inspector General for Audit, 4AGA


SUBJECT:    Gwinnett County, Georgia, Subrecipients Did Not Provide Funds
            Required by Their Contracts


                              HIGHLIGHTS

 What We Audited and Why

           We reviewed Gwinnett County’s (grantee) Community Development
           Block Grant (Block Grant) and HOME programs. The review was
           conducted as part of the U.S. Department of Housing and Urban
           Development (HUD), Office of Inspector General’s (OIG) strategic plan.
           The objective of our review was to determine whether the grantee used its
           community development grant funds in accordance with HUD rules and
           regulations.

 What We Found


           The Block Grant and HOME projects reviewed were eligible and met
           HUD’s national objectives, and the subrecipients were operating the
           projects in accordance with their contract with the grantee. However, the
           grantee’s subrecipients did not provide their share of the project funding
           as required by their contracts. As of October 31, 2006, the subrecipients
           had not provided $278,418 toward the projects. If the subrecipients had


 Table of Contents
           provided the funds specified in their contracts, the grantee’s contribution
           would have been less. The grantee would then have had additional funds
           to further its community development activities.

What We Recommend

           We recommend that the director of the Office of Community Planning and
           Development require the grantee to either collect the funds due from the
           subrecipients, according to the contracts, or amend the contracts
           appropriately. In the future, if the grantee does not require the
           subrecipients to provide funding to the projects, the contracts should not
           contain this requirement. Also, the grantee should establish controls to
           assure that all contract requirements are enforced.


Auditee’s Response


           We discussed the finding with the grantee and HUD officials during the
           audit. We provided a copy of the draft report to grantee officials on
           January 8, 2007, for their comments and discussed the report with the
           officials at the exit conference on January 12, 2007. The grantee provided
           written comments to our draft report during the exit conference.

           The grantee generally disagreed with the contents of the finding section.
           However, the grantee agreed to alter the subrecipients contract language
           and increase the monitoring and oversight of each project to capture all
           funds expended and permit the most accurate reporting to HUD on total
           projects costs for all Block Grant funded activities. The grantee stated that
           supplemental documentation, on the non-Block Grant expenditures, was
           available for review.

           The complete text of the grantee’s response, along with our evaluation of
           that response, can be found in appendix B of this report.




Table of Contents

                                         2
                        TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit                                                              5
      Finding 1: The Grantee’s Subrecipients Did Not Provide Their Share of
                 Project Funding as Required by Their Contracts

Scope and Methodology                                                         7


Internal Controls                                                             9

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use          10
   B. Auditee Comments and OIG’s Evaluation                                   11




                                         3
                 BACKGROUND AND OBJECTIVES

Gwinnett County, Georgia (grantee), an Entitlement Urban County, receives grant funds
for housing, community development, and homeless programs directly from the U.S.
Department of Housing and Urban Development (HUD) under Title 1 of the Housing and
Community Development Act of 1974, as amended, Title II of the National Affordable
Housing Act, and the Stewart B. McKinney Homeless Assistance Act. The funds are
provided on a formula-allocation basis. HUD headquarters in Washington, DC, performs
a mathematical calculation, which takes into account many demographic, economic, and
housing factors, to determine funding allocation amounts for local entitlement grantees
throughout the nation.

The grantee is governed by a five-member board of commissioners that sets direction and
formulates policies for the county government, adopts the budget, authorizes
expenditures, and approves or disapproves specific actions. Members are elected for
staggered terms. The grantee’s community development programs are administered
through the Division of Financial Services Budget Division. The grantee administers
four HUD community development grant programs. They include the Community
Development Block Grant (Block Grant) program, the HOME program, the Emergency
Shelter Grant program, and a downpayment assistance program. The grant funds
provided by HUD during 2006 include $4.2 million for the Block Grant program, $1.5
million for the HOME program, $177,000 for the Emergency Shelter Grant program, and
$32,000 for the American Dream Downpayment Initiative program.

W. Frank Newton, Inc., a program management firm, manages the programs for the
grantee. The management firm also manages programs for Cobb County and Clayton
County, Georgia.

The objective of our survey was to determine whether the grantee used its community
development grant funds in accordance with HUD rules and regulations.




Table of Contents
                                           4
                                    RESULTS OF AUDIT


Finding 1: The Grantee’s Subrecipients Did Not Provide Their
           Share of Project Funding as Required by Their
           Contracts

We reviewed six subrecipient projects funded with Block Grant funds. Although the
projects were eligible and met the national objectives, the subrecipients for four of the six
projects did not provide the full funding as required by their contracts with the grantee.
As of October 31, 2006, the subrecipients had not provided $278,418 toward the projects.
This occurred because the grantee did not enforce the provisions of the subrecipient
contracts. If the subrecipients had provided the funds specified in their contracts, the
grantee’s contribution would have been less. The grantee would then have had additional
funds to further its community development activities.

    Subrecipients Did Not Provide Required Funds


Based on the contracts, the funding for the subrecipients was as follows:

Subrecipient Maximum     Block     Minimum Subrecipient Subrecipient
  project      Block     Grant    subrecipient  funds     funds not
              Grant      funds       funds     provided   provided
               funds   provided
 Parking lot
   paving
              $121,000 $121,000      $121,105     $76,357    $44,748
Medical and
 electronic
 equipment
              $140,000 $136,678 1       $2,000         $0     $2,000
  Ceiling
   repairs
              $240,000 $240,000        $16,278    $11,558     $4,720
Senior center
              $500,000 $500,000      $400,000    $173,050   $226,950

      Totals         $1,001,000       $997,678             $539,383         $260,965           $278,418




1
    The subrecipient has $3,322 in Block Grant funds remaining on its contract with the grantee.


    Table of Contents                                  5
Although the Block Grant program does not require subrecipients to provide funds for its
projects, the grantee made this a requirement of the subrecipient contracts. Each contract
specifically stated that the subrecipient would provide “at least” a specified amount of
funds while the grantee would provide funding “up to” a specified amount.

We discussed the contracts with representatives of the managing firm administering the
Block Grant program for the grantee and with representatives of the grantee. According
to the representatives, they did not enforce the provisions of the contracts because the
contracts were prepared at the beginning of the program year and were only estimates of
the funds needed to pay for the costs of the projects. They stated that since the Block
Grant program did not require the subrecipients to provide any funding, they did not
consider it necessary to attempt to collect the funds or amend the contracts to reflect the
change in the amount of funds due from the subrecipients. They further stated that they
did not feel it was their responsibility to monitor the funds provided by the subrecipient,
since the subrecipients would have to pay for any difference in project costs that might
occur. Grantee representatives stated that they would have their legal division review the
requirements of the contract.

Federal regulations at 24 CFR [Code of Federal Regulations] 570.501 establish the
grantee’s responsibility for administering the grant. Paragraph (b) states that the recipient
is responsible for determining the adequacy of performance under subrecipient
agreements and procurement contracts, and for taking appropriate action when
performance problems arise. However, the grantee did not assure that the subrecipients
provided funds specified in their contracts.

As a result of our review, the grantee gathered supplemental documentation on the non-
Block Grant expenditures made by the subrecipients, and stated that it was available for
our review. However, the supplemental documentation did not support the non-Block
Grant expenditures.


 Recommendations


We recommend that the director, Office of Community Planning and Development,

1A.    Require the grantee to collect $278,418 due from the subrecipients to the program
       for future community development activities or amend the contracts to remove the
       funding requirement.

1B.    Require the grantee to specifically state its requirements in future contracts.

1C.    Require the grantee to establish procedures that assure compliance with contract
       provisions.



 Table of Contents
                                             6
                     SCOPE AND METHODOLOGY

The community development programs included activities at seven subrecipient cities
and 11 subrecipient nonprofit organizations. The HOME program included two
activities. We did not review the Emergency Shelter Grant program or the downpayment
assistance program. We selected the following projects for review based on the project
status and amount of funding:

                                 Subrecipient                                Private
    Program                        Project                    Funding        funding
   Block Grant                Parking lot paving              $121,000        $121,105

                                Health center                 $140,000          $2,000
                               Ceiling repairs                $240,000         $16,278
                           Shelter for teenage boys           $496,000              $0

                                Senior center                 $500,000        $500,000
                                 Teen center                  $500,000         $50,000
       HOME                  Affordable housing               $300,000       Various
                                                                             amounts
                             Affordable housing               $400,000       Various
                                                                             amounts

To achieve our review objective, we reviewed

   •   Applicable laws, regulations, and other (HUD) program requirements;
   •   Selected community development activities performed by the grantee for
       eligibility and compliance with HUD regulations; and
   •   The financial management and procurement system, including management’s
       controls over cash receipts, disbursements, purchases, contracts, and operations.

We interviewed the Atlanta, Georgia, Office of Community Planning and Development
program officials and grantee management and staff. We reviewed the project files, the
subrecipients’ contracts, payments to the subrecipients, and supporting documentation.
We physically inspected each project to determine its status and conformity with the
scope of the subrecipients’ contracts.

Our review generally covered the period January 1, 2004, through June 30, 2006. We
expanded our review period as needed to accomplish our objective. We performed our
on-site work from September through October 2006 at the grantee’s administrative
offices, the consultant’s offices in Lawrenceville, Georgia, and the Atlanta field office.



 Table of Contents
                                             7
We performed our review in accordance with generally accepted government auditing
standards.




 Table of Contents

                                         8
                          INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

           •   Effectiveness and efficiency of operations,
           •   Reliability of financial reporting, and
           •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined the following internal controls were relevant to our audit
       objectives:

           •   Compliance with laws, regulations, policies, and procedures that
               management has implemented to reasonably assure that resource use is
               consistent with laws and regulations.

           •   Policies and procedures that management has implemented to reasonably
               assure that resources are safeguarded against waste, loss, and misuse.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling
       program operations will meet the organization’s objectives.


 Significant Weaknesses


       Based on our review, we believe the following item is a significant weakness:

           •   The grantee did not have adequate controls to ensure that the subrecipients
               were providing their share of the funding for the projects (see finding).


 Table of Contents
                                            9
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                                                               Funds to be put
               Recommendation                                  to better use 1/

                     1A                                          $278,418

                    Total                                        $278,418


1/ Recommendations that funds be put to better use are estimates of amounts that could
be used more efficiently if an Office of Inspector General (OIG) recommendation is
implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
interest subsidy costs not incurred by implementing recommended improvements,
avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
which are specifically identified. In this instance, if the grantee decides to pursue the
collection of the funds due from the subrecipients, it will realize additional funds that can
be used to further its community development activities.




 Table of Contents

                                             10
Appendix B

     AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




Table of Contents       11
Comment 1

Comment 2

Comment 2


Comment 3




 Table of Contents

                     12
Table of Contents
                    13
Table of Contents

                    14
                     OIG Evaluation of Auditee Comments



Comment 1
                     The two subrecipient projects that the grantee stated were not
                     complete at the time of the review were the senior center project and
                     the medical and electronic equipment project.

                     We visited the senior center project on October 18, 2006. All major
                     construction was completed and the center was in full operation. At
                     October 31, 2006, the grantee’s records showed that the subrecipient
                     had only provided $173,051 of its $400,000 share of project funding.
                     The grantee’s files did not document any tracking of the subrecipient
                     payments to assure that the subrecipients had provided their
                     remaining share of the project costs.

                     We visited the medical and electronic equipment project at the health
                     center on October 20, 2006. The health center was operational. The
                     subrecipient had not provided its share of the project costs, and the
                     grantee’s files did not document that it required the subrecipient to
                     pay its share of the project costs.

Comment 2            At the time we completed our review, the grantee’s files did not
                     document the total amounts listed on the spreadsheet to support the
                     funds provided. As a result of our review, the grantee gathered
                     documentation to support the additional payments. However, the
                     supplemental documentation did not support the additional payments.

Comment 3            According to 24 CFR 570.501, the grantee is responsible for
                     administering the grant. The grantee’s failure to assure that the
                     subrecipients provided the funds specified in their contracts violates
                     this requirement.




 Table of Contents

                                         15
